TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




               Fiscal Year 2014 Review of Compliance With
               Legal Guidelines When Conducting Seizures
                          of Taxpayers’ Property



                                         August 5, 2014

                             Reference Number: 2014-30-053




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


FISCAL YEAR 2014 REVIEW OF                               The sale of the seized property was not
COMPLIANCE WITH LEGAL GUIDELINES                          properly advertised. (I.R.C. § 6335(b))
WHEN CONDUCTING SEIZURES OF                              The balance-due letter sent to the taxpayer
TAXPAYERS’ PROPERTY                                       after sale proceeds were applied to the
                                                          taxpayer’s account did not show the correct

Highlights                                            
                                                          remaining balance. (I.R.C. § 6340(c))
                                                          The amount of the liability for which the
Final Report issued on August 5, 2014                     seizure was made was not correct on the
                                                          notice of seizure provided to the taxpayer.
Highlights of Reference Number: 2014-30-053               (I.R.C. § 6335(a))
to the Internal Revenue Service Commissioner
                                                         The notice of the intent to levy and the
for the Small Business/Self-Employed Division.
                                                          notice of the right to a hearing before the
IMPACT ON TAXPAYERS                                       levy was not provided for each tax period
                                                          listed on Form 668-B, Levy. (I.R.C. §§
Taking a taxpayer’s property for unpaid tax is            6330(a) and 6331(d))
commonly referred to as a “seizure.” To ensure
that taxpayers’ rights are protected, the IRS         When legal and internal guidelines are not
Restructuring and Reform Act of 1998 amended          followed, it could result in the abuse of
the seizure provisions in Internal Revenue Code       taxpayers’ rights. However, in the instances
(I.R.C.) Sections (§§) 6330 through 6344. These       above, we did not identify any in which the
provisions govern many aspects of the seizure         taxpayers were adversely affected.
process from notification of the taxpayer through     In addition, internal procedures do not require
sale or redemption of the property.                   the IRS to retain a copy of all seizure sale
WHY TIGTA DID THE AUDIT                               advertisements, which would help them verify
                                                      that their actions conformed with statutes,
TIGTA is required under I.R.C.                        regulations, and Internal Revenue Manual
§ 7803(d)(1)(A)(iv) to annually evaluate the          procedural guidelines.
IRS’s compliance with the legal seizure
provisions to ensure that taxpayers’ rights were      WHAT TIGTA RECOMMENDED
not violated while seizures were being                TIGTA recommended that the Director,
conducted. The overall objective of this review       Collection Policy, Small Business/Self-Employed
was to determine whether seizures conducted           Division, include an instruction in the Internal
by the IRS complied with legal provisions set         Revenue Manual that requires the Property
forth in I.R.C. §§ 6330 through 6344 and with         Appraisal and Liquidation Specialist to retain a
the IRS’s own internal procedures.                    file copy of all print advertisements, a copy of
WHAT TIGTA FOUND                                      any Internet advertisements and mail-in bid
                                                      forms, and a text copy of information provided in
TIGTA reviewed a random sample of 50 of the           any radio and television advertisements of
580 seizures conducted from July 1, 2012,             seizure sales.
through June 30, 2013, to determine whether
the IRS complied with legal and internal              In their response to the report, IRS officials
guidelines when conducting each seizure.              agreed with the recommendation and plan to
                                                      take appropriate corrective action.
In the majority of the seizures reviewed, the IRS
followed all guidelines. However, in 14 seizures,
TIGTA identified 19 instances in which the IRS
did not comply with a particular I.R.C.
requirement. Specifically, TIGTA found that:
                                                     DEPARTMENT OF THE TREASURY
                                                           WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                    August 5, 2014


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                            Michael E. McKenney
                                  Deputy Inspector General for Audit

 SUBJECT:                         Final Audit Report – Fiscal Year 2014 Review of Compliance With
                                  Legal Guidelines When Conducting Seizures of Taxpayers’ Property
                                  (Audit # 201430002)

 This report presents the results of our review to determine whether seizures1 conducted by the
 Internal Revenue Service (IRS) complied with legal provisions set forth in Internal Revenue
 Code (I.R.C.) Sections (§§) 6330 through 6344 and with the IRS’s own internal procedures. The
 Treasury Inspector General for Tax Administration is required under I.R.C. § 7803(d)(1)(A)(iv)
 to annually evaluate the IRS’s compliance with the legal seizure provisions to ensure that
 taxpayers’ rights were not violated while seizures were being conducted. We have evaluated the
 IRS’s compliance with the seizure provisions since Fiscal Year 1999. The audit is included in
 our Fiscal Year 2014 Annual Audit Plan and addresses the major management challenge of
 Taxpayer Protection and Rights.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendation.
 If you have any questions, please contact me or Bryce Kisler, Acting Assistant Inspector General
 for Audit (Compliance and Enforcement Operations).




 1
     Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
                       Fiscal Year 2014 Review of Compliance With Legal Guidelines
                             When Conducting Seizures of Taxpayers’ Property




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Legal Provisions and Internal Procedures Were Not Always
          Followed When Conducting Seizures ........................................................... Page 3
          Internal Guidelines for Conducting Seizures and Sales Can
          Be Improved.................................................................................................. Page 5
                    Recommendation 1:.......................................................... Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 7
          Appendix II – Major Contributors to This Report ........................................ Page 8
          Appendix III – Report Distribution List ....................................................... Page 9
          Appendix IV – Outcome Measure ................................................................ Page 10
          Appendix V – Synopsis of Selected Legal Provisions for
          Conducting Seizures ..................................................................................... Page 11
          Appendix VI – Prior Reports on Compliance With Seizure
          Procedures ..................................................................................................... Page 14
          Appendix VII – Management’s Response to the Draft Report ..................... Page 16
         Fiscal Year 2014 Review of Compliance With Legal Guidelines
               When Conducting Seizures of Taxpayers’ Property




                        Abbreviations

FY                Fiscal Year
I.R.C.            Internal Revenue Code
IRM               Internal Revenue Manual
IRS               Internal Revenue Service
TIGTA             Treasury Inspector General for Tax Administration
                    Fiscal Year 2014 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property




                                              Background

The collection of unpaid tax by the Internal Revenue Service (IRS) generally begins with letters
to the taxpayer followed by telephone calls and personal contacts by an IRS employee. The IRS
employees who make these personal contacts are referred to as revenue officers. Revenue
officers consider the taxpayer’s ability to pay the tax and discuss alternative payment options
with them, such as an installment agreement or an offer in compromise.1 If these actions have
been taken and the taxpayer still has not fully paid the tax due, the revenue officer has the
authority to take the taxpayer’s funds or property for the payment of tax. Taking a taxpayer’s
property for unpaid tax is commonly referred to as a “seizure.”
To ensure that taxpayer rights are protected, the IRS Restructuring and Reform Act of 19982
amended the seizure provisions in Internal Revenue Code (I.R.C.) Sections (§§) 6330 through
6344. These provisions and the IRS’s internal procedures are very specific regarding how a
seizure should be performed.3
The Treasury Inspector General for Tax Administration (TIGTA) is required under
I.R.C. § 7803(d)(1)(A)(iv) to annually evaluate the IRS’s compliance with these legal seizure
provisions. We have evaluated the IRS’s compliance with the seizure provisions since Fiscal
Year (FY)4 1999.5
Following passage of the IRS Restructuring and Reform Act of 1998, IRS seizures decreased
from 10,090 in FY 1997 to 74 in FY 2000. The number of seizures has increased since FY 2000;
however, seizures in FY 2013 were still only 5 percent of those reported for FY 1997. It is
unlikely that the number of seizures will ever return to pre-1998 levels. Figure 1 illustrates the
number of seizures made over the past five fiscal years.




1
  An offer in compromise is a proposal by a taxpayer to settle an unpaid account(s) for less than the full amount of
the balance due.
2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
3
  See Appendix V for a synopsis of the applicable legal provisions.
4
  Any yearly accounting period, regardless of its relationship to a calendar year. The Federal Government’s fiscal
year begins on October 1 and ends on September 30.
5
  See Appendix VI for a list of all prior audit reports issued on the IRS’s compliance with seizure procedures.
                                                                                                              Page 1
                       Fiscal Year 2014 Review of Compliance With Legal Guidelines
                             When Conducting Seizures of Taxpayers’ Property



                                  Figure 1: IRS Seizures by Fiscal Year




    Source: IRS Data Books.6

This review was performed during the period November 2013 through March 2014 with
information received from the Small Business/Self-Employed Division Headquarters in
New Carrollton, Maryland. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




6
    The IRS Data Book is a report that describes activities conducted by the IRS during the fiscal year.
                                                                                                           Page 2
                    Fiscal Year 2014 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property




                                       Results of Review

Legal Provisions and Internal Procedures Were Not Always Followed
When Conducting Seizures
A review of a random sample of 50 seizures from the 580 seizures that the IRS conducted from
July 1, 2012, through June 30, 2013, showed that in the majority of seizures reviewed, the IRS
followed legal and internal guidelines applicable to the respective case, and we did not identify
any instances in which the taxpayers were adversely affected.7 However, in 14 seizures, we
identified 19 instances in which the IRS did not comply with a particular I.R.C. requirement.8
Not following the legal and internal guidelines could result in the abuse of taxpayers’ rights.
Specifically, we found:
        Nine instances in which the sale of the seized property was not properly advertised.
         (I.R.C. § 6335(b))
        Four instances in which sales proceeds were applied to taxpayers’ liabilities, but the
         required balance-due letters sent to the taxpayers did not show the correct remaining
         balance. (I.R.C. § 6340(c))
        Four instances in which the amount of the liability for which the seizure was made was
         not correct on the notice of seizure provided to the taxpayer. (I.R.C. § 6335(a))
        Two instances in which the notice of the intent to levy and the right to a hearing before
         the levy was not provided for each tax period on the Form 668-B, Levy.9 (I.R.C. §§
         6330(a) and 6331(d))

Sales of seized properties were not always properly advertised
I.R.C. § 6335(b) requires that the IRS, as soon as practicable after the seizure of property, give
notice to the owner and publish a notification in a newspaper distributed within the county where
the seizure was made. If there is no newspaper published or generally circulated in the county,
the IRS must post a notice at the post office nearest the place where the seizure is made, and in


7
  Our review included a total of 58 guidelines for each seizure. The guidelines applicable for each seizure vary due
to the timing between the date of seizure and date of our review. For example, at the time of our review, the sale for
the seized property may not have been advertised, the sale may have been advertised but not yet occurred, the
property may have been redeemed or released prior to sale, or the property may have been sold.
8
  Five seizures had two occurrences in which the IRS did not comply with a particular I.R.C. requirement.
9
  A levy is a means to take property by legal authority to satisfy a tax debt. The IRS uses a levy as a tool to collect
on balance-due accounts that are not being paid voluntarily.
                                                                                                               Page 3
                    Fiscal Year 2014 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



not less than two other public places. The notice must specify the property to be sold and the
time, place, manner, and conditions of the sale thereof.
We identified nine seizures in which the payment terms were not correctly stated in the
newspaper notice. The Internal Revenue Manual (IRM) requires that the notice of sale contain
the description of the property; the date, time, and place of sale; payment terms; and information
on grouping of property.10 The IRS has since revised the IRM to require that the advertisement
contain the same information as the notice of sale,11 so we are not making any new
recommendations for this issue.

Balance-due letters sent to the taxpayers did not always show the correct
remaining balance
I.R.C. § 6340(a) requires the IRS to keep a record of all sales of property. The record should
include the tax for which any such sale was made, the dates of the seizure and sale, the name of
the party assessed, all proceedings in making the sale, the amount of expenses, the names of the
purchasers, and the date of the deed or certificate of sale of personal property. I.R.C. § 6340(c)
requires that the taxpayer be furnished the record of sale under subsection (a) (other than the
names of the purchasers), the amount from such sale applied to the taxpayer’s liability, and the
remaining balance of such liability.
The IRM12 lists three documents to be retained in the permanent record and to be provided to the
taxpayer. Those documents are: Record 21, Record of Seizure and Sale,13 Form 2434-B, Notice
of Encumbrances Against or Interests in Property Offered for Sale, and Letter 3074, Transmittal
Letter Providing Balance Remaining on the Account after Application of Proceeds. We
identified four seizures in which the remaining balance provided to the taxpayer was not
accurate. However, because the errors did not appear to be systemic in nature, we are not
making any recommendations for this issue.

Taxpayers were not always provided a notice of seizure with a correct liability
balance for which the seizure was made
I.R.C. § 6335(a) requires that the IRS, as soon as practicable after the seizure of property,
provide the owner of the property with a notice in writing that specifies the liability for which the
seizure was made and an accounting of the property seized.



10
   IRM 5.10.4.12 (4) (Jul. 3, 2009).
11
   IRM 5.10.4.14 (1) (Jun. 28, 2013).
12
   IRM 5.10.6.12 (2) (Jul. 3, 2009).
13
   Record 21 is a three-part form that documents various aspects of the seizure and sale process. It includes
information such as the assessments under which the seizure was made, description of the property seized,
information regarding the advertisement of the sale, the proceeds and expenses of the seizure and sale, and the date
on which the certificate of sale was issued and to whom.
                                                                                                             Page 4
                    Fiscal Year 2014 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



The IRM14 provides guidance on completing Form 2433, Notice of Seizure.15 It requires that the
liability shown on Form 2433 agree with the taxpayer’s total amount due for the tax modules16
listed on Form 668-B. This amount should include all accruals and match the Total Amount Due
on Form 668-B. If there is a difference in amount, it should be documented in the Integrated
Collection System17 history. The items of property seized should be described and identified
with reasonable certainty in an inventory listed on Form 2433 or in an attachment to Form 2433.
We identified four seizures in which the respective Forms 2433 provided to the taxpayers did not
show the correct liability for which the seizures were made. However, because the errors did not
appear to be systemic in nature, we are not making any recommendations for this issue.

The IRS did not provide notice of the intent to levy and the right to a hearing
before the levy for every period listed on Form 668-B
I.R.C. § 6330(a) requires that a levy may not be made on any property or right to property of any
person, unless the IRS has notified that person in writing of his or her right to a hearing before
the levy is made. The notice is required for all the taxable periods to which the unpaid tax
relates. I.R.C. § 6331(d) also requires that a levy can be made only after the IRS has notified the
taxpayer, in writing, of the intention to make the levy no less than 30 calendar days before the
day of the levy.
The IRM18 requires that for each tax period listed on Form 668-B, a Letter 1058, Final Notice,
Notice of Intent to Levy and Notice of Your Right to a Hearing, must have been provided to the
taxpayer at least 30 calendar days before the seizure. We identified two seizures for which a
Letter 1058 was not provided for each liability shown on the respective Form 668-B. However,
because the number of errors was small and they did not appear to be systemic in nature, we are
not making any recommendations for this issue.

Internal Guidelines for Conducting Seizures and Sales Can Be
Improved
In addition to the legally required advertising, the IRM19 states that additional classified or spot
advertisements should be considered to attract bidders. For example, the IRS may advertise sales
on the radio, in television spot announcements, and in trade journals.20 In addition, all sales

14
   IRM Exhibit 5.10.3-4 (Jan. 22, 2008).
15
   Form 2433 is the taxpayer’s receipt for the seized property. The document specifies the sum demanded – for
personal property, a list of the property seized; and for real property, a description of the property seized.
16
   Tax module refers to each tax return filed by the taxpayer for a specific period (year and quarter) during a
calendar year for each type of tax.
17
   The Integrated Collection System is an automated system used to control and monitor delinquent cases assigned to
revenue officers in the field offices.
18
   IRM 5.10.1.7 (1) (Mar. 7, 2009).
19
   IRM 5.10.4.14 (2) (Jun. 28, 2013).
20
   IRM 5.10.4.14.1 (2) (Jun. 28, 2013).
                                                                                                           Page 5
                     Fiscal Year 2014 Review of Compliance With Legal Guidelines
                           When Conducting Seizures of Taxpayers’ Property



should be posted on the Property Appraisal and Liquidation Specialist21 website. Advertisements
other than the legal advertisement are not required to include the time, place, manner, and
conditions of the sale; however, if they are included, they must be the same as on the notice
provided to the taxpayer.22
The IRM has no requirement for the Property Appraisal and Liquidation Specialists to maintain a
copy of all print advertisements, copies of Internet advertisements or mail-in bid forms included
in the respective advertisements, nor are they required to retain a copy of the text used in radio
and television advertisements, when applicable. However, IRS internal procedures23 require a
post-review of the forms and documents to verify whether the actions conformed to statutes,
regulations, and IRM procedural guidelines which is difficult to accomplish without copies of the
advertisements.

Recommendation
The Director, Collection Policy, Small Business/Self-Employed Division, should:
Recommendation 1: Include an instruction in the IRM that requires the Property Appraisal
and Liquidation Specialist to retain a file copy of all print advertisements, a copy of any Internet
advertisements and mail-in bid forms, and a text copy of information provided in any radio and
television advertisements of seizure sales.
         Management’s Response: IRS management agreed with this recommendation.
         They will revise IRM 5.10.4 to include an instruction to maintain a copy in the seizure
         file of any print advertisements, Internet advertisements, mail-in bid forms, and a text
         copy of any radio and television advertisements for sales of seized property.




21
   The Property Appraisal and Liquidation Specialists serve as the technical authority in appraising property
proposed for seizure, take custody of the property after the seizure, and are generally responsible for all further
sale-related actions.
22
   IRM 5.10.4.14 (1) (Jun. 28, 2013).
23
   IRM 5.10.6.11 (1) (Jul. 3, 2009).
                                                                                                                Page 6
                    Fiscal Year 2014 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether seizures1 conducted by the IRS
complied with legal provisions set forth in I.R.C. §§ 6330 through 6344 and with the IRS’s own
internal procedures.2 To accomplish our objective, we:
I.       Obtained documentation of national guidelines provided to employees; identified IRS
         systems, policies, and practices for ensuring compliance with legal provisions and
         internal procedures related to seizures; and determined how these tools were used.
II.      Selected and reviewed a random sample of 50 of the 580 seizures conducted by the IRS
         from July 1, 2012, through June 30, 2013. We reviewed the sample of seizures to
         determine whether the IRS complied with legal provisions and internal procedures, and
         whether the proceeds and applicable expenses of the seizures and sales were properly
         recorded to the taxpayers’ accounts on the IRS’s main computer system. We used a
         random sample to ensure that each of the 580 seizures had an equal chance of being
         selected.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Small Business/Self-Employed
Division Collection function’s policies, procedures, and practices for conducting seizures of
taxpayers’ property under the provisions of I.R.C. §§ 6330 through 6344.




1
 Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
2
 This audit was not intended to determine whether the decision to seize was appropriate or to identify the cause of
any violations.
                                                                                                             Page 7
                Fiscal Year 2014 Review of Compliance With Legal Guidelines
                      When Conducting Seizures of Taxpayers’ Property



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl L. Aley, Director
Glen J. Rhoades, Audit Manager
Beverly K. Tamanaha, Acting Audit Manager
Richard J. Viscusi, Acting Audit Manager
Janis Zuika, Lead Auditor
Charles S. Nall, Senior Auditor




                                                                                         Page 8
               Fiscal Year 2014 Review of Compliance With Legal Guidelines
                     When Conducting Seizures of Taxpayers’ Property



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Field Collection, Small Business/Self-Employed Division SE:S:FC
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 9
                      Fiscal Year 2014 Review of Compliance With Legal Guidelines
                            When Conducting Seizures of Taxpayers’ Property



                                                                                        Appendix IV

                                         Outcome Measure

This appendix presents detailed information on the measurable impact that our review will have
on tax administration. This benefit will be incorporated into our Semiannual Report to Congress.

Type and Value of Outcome Measure:
      Taxpayer Rights and Entitlements – Actual; 14 taxpayers for whom the IRS did not comply
       with legal provisions and internal procedures when conducting seizures1 (see page 3).

Methodology Used to Measure the Reported Benefit:
We selected and reviewed a random sample of 50 of the 580 seizures conducted by the IRS from
July 1, 2012, through June 30, 2013. While we did not identify any instances in which the
taxpayers were adversely affected, not adhering to legal and internal guidelines could result in
the abuse of taxpayers’ rights.




1
    Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
                                                                                             Page 10
                     Fiscal Year 2014 Review of Compliance With Legal Guidelines
                           When Conducting Seizures of Taxpayers’ Property



                                                                                                     Appendix V

             Synopsis of Selected Legal Provisions for
                       Conducting Seizures

I.R.C. § 6330 requires the IRS to issue the taxpayer a notice of his or her right to a hearing prior
to any seizure1 action. The notice must be 1) given in person, 2) left at the taxpayer’s home or
business, or 3) mailed as certified-return receipt requested no fewer than 30 calendar days before
the day of the seizure. The notice must explain in simple terms 1) the amount owed, 2) the right
to request a hearing during the 30-calendar-day period, and 3) the proposed action by the IRS
and the taxpayer’s rights with respect to such action.
The statute of limitations for collection is suspended from the time a taxpayer requests a hearing
and while such hearings and appeals are pending, except when the underlying tax liability is not
at issue in the appeal and the court determines that the IRS has shown good cause not to suspend
the seizure. No limitation period may expire before 90 calendar days after a final determination.
These procedures do not apply if the collection of tax is at risk.
I.R.C. § 6331 authorizes the IRS to seize a taxpayer’s property for unpaid tax after sending the
taxpayer a 30-calendar-day notice of intent to levy.2 This section also prohibits seizure 1) during
a pending suit for the refund of any payment of a divisible tax, 2) before a thorough investigation
of the status of any property subject to seizure, or 3) while either an offer in compromise3 or an
installment agreement is being evaluated and, if necessary, for 30 additional calendar days
during which the taxpayer may appeal the rejection of the offer in compromise or installment
agreement.
I.R.C. § 6332 requires that a third party in possession of property subject to seizure surrender
such property when a levy notice is received. It contains sanctions against third parties who do
not surrender such property when a levy notice is received.
I.R.C. § 6333 requires that a third party with control of books or records containing evidence or
statements relating to property subject to seizure exhibit such books or records to the IRS when a
levy notice is received.
I.R.C. § 6334 enumerates property exempt from seizure. The exemption amounts are adjusted
each year and included $8,370 for the period July 1 through December 31, 2011, and $8,570 for

1
  Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
2
  A levy is a means to take property by legal authority to satisfy a tax debt. The IRS uses a levy as a tool to collect
on balance-due accounts that are not being voluntarily paid.
3
  An offer in compromise is a proposal by a taxpayer to settle an unpaid account(s) for less than the full amount of
the balance due.
                                                                                                               Page 11
                    Fiscal Year 2014 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



the period January 1 through June 30, 2012, for fuel, provisions, furniture, and personal effects;
and $4,180 for the period July 1 through December 31, 2011, and $4,290 for the period
January 1 through June 30, 2012, for books and tools necessary for business purposes. Also, any
primary residence, not just the taxpayer’s, is exempt from seizure when the amount owed is
$5,000 or less. Seizure of the taxpayer’s principal residence is allowed only with the approval of
a U.S. District Court judge or magistrate. Property used in an individual taxpayer’s business is
exempt except with written approval of the Area Office4 Director, and the seizure may be
approved only if other assets are not sufficient to pay the liability.
I.R.C. § 6335 contains procedures for the sale of seized property. Notice must be given to the
taxpayer; the property must be advertised in the county newspaper or posted at the nearest
U.S. Postal Service office; and such notices shall specify the time, place, manner, and conditions
of sale. This Section requires that the property be sold no fewer than 10 calendar days or no
more than 40 calendar days from the time of giving public notice. Finally, this section expressly
prohibits selling seized property for less than the minimum bid.
I.R.C. § 6336 contains procedures for the accelerated disposition of perishable property. This is
property such as fresh food products or any property that requires prohibitive expenses to
maintain during the normal sale time period. The property may either be sold quickly or
returned to the taxpayer in exchange for payment of a bond.
I.R.C. § 6337 allows the taxpayer to redeem seized property prior to sale by paying the amount
due plus the expenses of the seizure. It also allows a taxpayer to redeem real property within
180 calendar days of the sale by paying the successful bidder the purchase price plus 20 percent
per annum interest.
I.R.C. § 6338 requires that the IRS give purchasers of seized property a certificate of sale upon
full payment of the purchase price. This includes issuing a deed to real property after expiration
of the 180-calendar-day period required by I.R.C. § 6337. The deed is exchanged for the
certificate of sale issued at the time of the sale.
I.R.C. § 6339 provides the legal effect of the certificate of sale for personal property and the
transfer deed for real property.
I.R.C. § 6340 requires that each Area Office keep a record of all sales of seized property. This
record must include the tax for which such sale was made, the dates of seizure and sale, the name
of the party assessed, all proceedings in making such sale, the amount of expenses, the names of
the purchasers, and the date of the deed or certificate of sale of personal property. The taxpayer
will be furnished: 1) the information above except the purchasers’ names, 2) the amount of such
sale applied to the taxpayer’s liability, and 3) the remaining balance of such liability.
I.R.C. § 6341 allows expenses for all seizure and sale cases.

4
 A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues.
                                                                                                            Page 12
                    Fiscal Year 2014 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



I.R.C. § 6342 enumerates how the proceeds of a seizure and sale are to be applied to a
taxpayer’s account. Proceeds are applied first to the expenses of the seizure and sale
proceedings. Any remainder is then applied to the taxpayer’s liability.
I.R.C. § 6343 outlines various conditions under which a seizure may be released and property
returned to the taxpayer. These conditions include full payment of the liability, determination of
a wrongful seizure, financial hardship, etc. This section allows a consent agreement between the
United States and either the taxpayer or the National Taxpayer Advocate5 when the return of
seized property would be in the taxpayer’s best interest.
I.R.C. § 6344 contains cross-references for I.R.C. §§ 6330 through 6344.
Public Law Number 105-206 (IRS Restructuring and Reform Act of 1998)6 § 3443 required
the IRS to implement a uniform asset disposal mechanism by July 22, 2000, for sales of seized
property under I.R.C. § 6335. This mechanism was designed to remove revenue officers7 from
participating in the sales of seized assets.
Public Law Number 105-206 (IRS Restructuring and Reform Act of 1998) § 3421 requires
the IRS to employ a supervisory review of seizures before action is taken.




5
  The Taxpayer Advocate Service is an independent organization within the IRS that helps taxpayers resolve
problems with the IRS and recommends changes to prevent problems.
6
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
7
  The employees who make personal contacts with taxpayers about the collection of unpaid tax are referred to as
revenue officers.
                                                                                                          Page 13
                Fiscal Year 2014 Review of Compliance With Legal Guidelines
                      When Conducting Seizures of Taxpayers’ Property



                                                                            Appendix VI

          Prior Reports on Compliance With Seizure
                         Procedures

TIGTA, Ref. No. 1999-10-072, The Internal Revenue Service Needs to Improve Compliance
With Legal and Internal Guidelines When Taking Taxpayers’ Property for Unpaid Taxes
(Sept. 1999).
TIGTA, Ref. No. 2000-10-114, The Internal Revenue Service Has Significantly Improved
Compliance With Legal and Internal Guidelines When Seizing Taxpayers’ Property (Aug. 2000).
TIGTA, Ref. No. 2001-10-061, Letter Report: The Internal Revenue Service Complied With
Legal and Internal Guidelines When Seizing Property for Payment of Tax (May 2001).
TIGTA, Ref. No. 2002-10-005, The Internal Revenue Service Has Taken Significant Actions, But
Increased Oversight Is Needed to Fully Implement the Uniform Asset Disposal Mechanism
(Nov. 2001).
TIGTA, Ref. No. 2002-40-155, The Internal Revenue Service Continues to Comply With the Law
When Seizing Taxpayers’ Property (Aug. 2002).
TIGTA, Ref. No. 2003-40-115, Fiscal Year 2003 Statutory Audit of Compliance With Seizure
Procedures (May 2003).
TIGTA, Ref. No. 2004-30-149, Legal and Internal Guidelines Were Not Always Followed When
Conducting Seizures of Taxpayers’ Property (Aug. 2004).
TIGTA, Ref. No. 2005-30-091, Fiscal Year 2005 Review of Compliance With Legal Guidelines
When Conducting Seizures of Taxpayers’ Property (Jun. 2005).
TIGTA, Ref. No. 2006-30-113, Fiscal Year 2006 Review of Compliance With Legal Guidelines
When Conducting Seizures of Taxpayers’ Property (Aug. 2006).
TIGTA, Ref. No. 2007-30-109, Fiscal Year 2007 Review of Compliance With Legal Guidelines
When Conducting Seizures of Taxpayers’ Property (Jul. 2007).
TIGTA, Ref. No. 2008-30-126, Fiscal Year 2008 Review of Compliance With Legal Guidelines
When Conducting Seizures of Taxpayers’ Property (Jun. 2008).
TIGTA, Ref. No. 2009-30-077, Fiscal Year 2009 Review of Compliance With Legal Guidelines
When Conducting Seizures of Taxpayers’ Property (May 2009).
TIGTA, Ref. No. 2010-30-049, Fiscal Year 2010 Review of Compliance With Legal Guidelines
When Conducting Seizures of Taxpayers’ Property (May 2010).

                                                                                    Page 14
               Fiscal Year 2014 Review of Compliance With Legal Guidelines
                     When Conducting Seizures of Taxpayers’ Property



TIGTA, Ref. No. 2011-30-049, Fiscal Year 2011 Review of Compliance With Legal Guidelines
When Conducting Seizures of Taxpayers’ Property (May 2011).
TIGTA, Ref. No. 2012-30-072, Fiscal Year 2012 Review of Compliance With Legal Guidelines
When Conducting Seizures of Taxpayers’ Property (Jun. 2012).
TIGTA, Ref. No. 2013-30-061, Fiscal Year 2013 Review of Compliance With Legal Guidelines
When Conducting Seizures of Taxpayers’ Property (Jun. 2013).




                                                                                  Page 15
    Fiscal Year 2014 Review of Compliance With Legal Guidelines
          When Conducting Seizures of Taxpayers’ Property



                                                   Appendix VII

Management’s Response to the Draft Report




                                                           Page 16
Fiscal Year 2014 Review of Compliance With Legal Guidelines
      When Conducting Seizures of Taxpayers’ Property




                                                       Page 17
Fiscal Year 2014 Review of Compliance With Legal Guidelines
      When Conducting Seizures of Taxpayers’ Property




                                                       Page 18
